Attorneys for Petitioner:
Brian Halligan Fletcher
Counsel of Record
Stanford Law School Supreme Court Clinic
559 Nathan Abbott Way
Stanford, CA 94305
bfletcher@law.stanford.edu
650-724-3345
Party name: Arthur Gregory Lange
Attorneys for Respondent:
Samuel Thomas Harbourt
Counsel of Record
California Department of Justice, Office of the Solicitor General
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102
Samuel.Harbourt@doj.ca.gov
415-510-3919
Party name: State of California
Other:
Amanda Kelly Rice
Counsel of Record
Jones Day
150 W. Jefferson Ave., Suite 2100
Detroit, MI 48226
arice@jonesday.com
313-230-7926
Party name: Court-appointed amicus curiae in support of the judgment below

